                                                            United States Department of State
                                                            and the Broadcasting Board of Governors

                                                            Office ofInspector General


                                                                   AUG 	11 1011




MEMORANDUM

TO:            A/LMIAQM - Cathy 1. Re~       ell
FROM:          OIG - Harold W. Geiser'     'f17 1
SUBJECT:      Report on Audit ofDepartment ofState Mobile Computing Program Funded by the
              American Recovery and Reinvestment Act (AUD/CG- II -37)

The subject report is attached for your review and action. As the action office for the report's one
recommendation, please provide your response to the report and information on actions taken or
planned for the recommendation within 30 days of the date of this memorandum. Actions taken or
planned are subject to follow-up and reporting in accordance with the attached compliance response
information.

The Office ofInspector General (OIG) incorporated your comments as appropriate within the body
of the report and included them in their entirety as Appendix C.

OIG appreciates the cooperation and assistance provided by your staff during this audit. If you have
any questions, please contact Evelyn R. Klemstine, Assistant Inspector General for Audits, at (202)
663-0372 or Richard Astor, Division Director, at (703) 284-2601 or by email at astorr@state.gov .

Attachment: As stated.

cc: 	 INRlEX/B&F    (b) (6)
      M/PRI ­ (b) (6)
      IRMlBMP/SPO/SPD ­ (b) (6)
                                        UNCLASSIFIED




                    United States Department of State 

                 and the Broadcasting Board of Governors

                        Office of Inspector General



                                      Office of Audits 





                              Audit of the 

                          Department of State 

                       Mobile Computing Program 

                             Funded by the 

                 American Recovery and Reinvestment Act 



                                        AUD/CG-11-37 

                                         August 2011





                                         Important Notice

This report is intended solely for the official use of the Department of State or the Broadcasting
Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the
Department of State or the Broadcasting Board of Governors, by them or by other agencies or
organizations, without prior authorization by the Inspector General. Public availability of the
document will be determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552.
Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                        UNCLASSIFIED

                                                                United States Department of State
                                                                and the Broadcasting Board of Governors

                                                                Office of Inspector General




                                             PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one of a series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General's (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State and the Broadcasting Board of Governors.

        This report addresses the Department of State's (Department) compliance with Federal,
Department, and American Recovery and Reinvestment Act (Recovery Act) acquisition
management practices as related to the Department's Mobile Computing Program. The report is
based on interviews with Department employees and officials, direct observation, and a review
of applicable documents.

        OIG contracted with the independent public accountant Clarke Leiper, PLLC, to perform
this audit. The contract required that Clarke Leiper perform its audit in accordance with
guidance contained in the Government Auditing Standards, issued by the Comptroller General of
the United States. Clarke Leiper's report is included.

        Clarke Leiper identified three areas in which improvements could be made: transparency
of award notifications posted on the Web site FedBizOpps, compliance with certain requirements
established by the Office of Management and Budget, and accuracy of reporting by award
recipients.

        OIG evaluated the nature, extent, and timing of Clarke Leiper's work; monitored progress
throughout the audit; reviewed Clarke Leiper's supporting documentation; evaluated key
judgments; and performed other procedures as appropriate. OIG concurs with Clarke Leiper's
findings, and the recommendation contained in the report was developed on the basis of the best
knowledge available and were discussed in draft form with those individuals responsible for
implementation. OIG's analysis of management's response to the recommendation has been
incorporated into the report. OIG trusts that this report will result in more effective, efficient,
and/or economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.

                                   ~o/V-.~

                                    .I
                                      Harold W. Geisel
                                      Deputy Inspector General
                                                UNCLASSIFIED

                                                              
                                               CLARKE LEIPER, PLLC
                                            CERTIFIED PUBLIC ACCOUNTANTS
                                                  6265 FRANCONIA ROAD
                                                ALEXANDRIA, VA 22310-2510
                                                       703-922-7622
                                                    FAX: 703-922-8256
DORA M. CLARKE
LESLIE A. LEIPER



          Audit of Department of State Mobile Computing Program Funded by the American Recovery
          and Reinvestment Act



          Office of Inspector General
          U.S. Department of State 

          Washington, D.C. 


          Clarke Leiper, PLLC (referred to as “we” in this letter), has performed an audit of the
          Department of State’s (Department’s) Mobile Computing Program funded by the American
          Recovery and Reinvestment Act (Recovery Act). We evaluated the program’s planned activities,
          contracts awarded with Recovery Act funds, and compliance with reporting requirements
          established by the Recovery Act. This performance audit, performed under Contract No.
          SAQMPD04D0033, was designed to meet the objective identified in report section titled
          “Objective” and further defined in Appendix A, “Scope and Methodology,” of the report.

          We conducted this performance audit from April through October 2010 in accordance with
          Government Auditing Standards, issued by the Comptroller General of the United States. We
          communicated the results of our performance audit and the related findings and recommendation
          to the Department of State Office of Inspector General.

          We appreciate the cooperation provided by personnel in Department offices during the audit.




          Clarke Leiper, PLLC
          July 2011
                                                              




                                                UNCLASSIFIED

                                UNCLASSIFIED





ACRONYMS

Department     Department of State
FAR            Federal Acquisition Regulation
FBO            Federal Business Opportunities (FedBizOpps)
FPDS           Federal Procurement Data System
GFMS           Global Financial Management System
IRM            Bureau of Information Resource Management
IT             Information Technology
OIG            Office of Inspector General
OMB            Office of Management and Budget
ONE            OpenNet Everywhere
Recovery Act   American Recovery and Reinvestment Act of 2009
TAS            Treasury Account Symbol




                                UNCLASSIFIED

                                                            UNCLASSIFIED


                                                     TABLE OF CONTENTS

 

Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


Objective ..............................................................................................................................3 


Results of Audit ...................................................................................................................3 


     A. Program Objectives Are Being Accomplished ………………………………… 4 

     B. Program Is Generally in Compliance With Recovery Act Requirements………. 5 


Appendices 

   A. Scope and Methodology ..........................................................................................8 

   B. Capital Investment Fund ........................................................................................11 

   C. Bureau of Administration Response ......................................................................12 





                                                            UNCLASSIFIED

                                           UNCLASSIFIED


                                       Executive Summary

        The American Recovery and Reinvestment Act of 2009 (Recovery Act)1 provided
approximately $10.5 million to fund the Department of State’s (Department) Mobile Computing
program, which provides technological enhancements and continuing operations for passport and
visa services and American Citizen Services and increases the ability of employees to telework
worldwide.

       The objective of our audit was to determine whether the Department adequately
implemented Mobile Computing program plans, achieved stated program outcomes, and
complied with the reporting requirements of the Recovery Act.

        We found that program managers in the Bureau of Information Resource Management
(IRM) have planned for and integrated the Mobile Computing program into the Department-wide
Cyber Security initiatives. The overall objectives of the Mobile Computing program have
existed for several years, and the Recovery Act provided the funding necessary to execute the
plans. The plan includes appropriate focus on accountability and other requirements of Recovery
Act funds. In addition, we determined that the Department’s plans were thorough and well
thought out. Delays in scheduled progress were considered to be minor, and we considered
explanations for these delays to be reasonable.

       The Department has taken appropriate actions in establishing guidelines intended to
ensure compliance with Office of Management and Budget (OMB) requirements for the
Recovery Act. Contracts were awarded in accordance with the Federal Acquisition Regulation
(FAR) and OMB memoranda.2 Procedures related to data transparency and reporting
requirements were established and implemented. While procedures related to data transparency
and reporting requirements were established and implemented, a few instances of minor
noncompliance were identified for the Mobile Computing program. Specifically, Recovery Act
transparency requirements identifying the purpose, nature, and corresponding program for
contract awards were not met before information was posted or publicized. Also, some
Recovery Act award information was not reported accurately.

       We recommended that the Bureau of Administration, Office of Logistics Management,
Office of Acquisitions Management (A/LM/AQM), enhance its contract oversight efforts to
ensure more complete and accurate reporting of award information.

        In its response to the draft report (see Appendix C), AQM concurred with the
recommendation. Based on the response, OIG considers the recommendation resolved, and it
will be closed pending review and acceptance of documentation for the actions OIG specified.
The response and OIG’s analysis are presented after the recommendation.



1
 Pub. L. No. 111-5, 123 stat. 115 (2009). 

2
 Memorandums M-09-10, Initial Implementing Guidance for the American Recovery and Reinvestment Act of 2009,

and M-09-15, Updated Implementing Guidance for the American Recovery and Reinvestment Act of 2009.

                                                     1

                                           UNCLASSIFIED
                                       UNCLASSIFIED


                                          Background

        The Recovery Act was signed into law as a direct response to the recent economic crisis
in an effort to jumpstart the economy and invest in long-term growth by putting a downpayment
on addressing long-neglected challenges. The Department was provided $602 million in
Recovery Act funds to create and save jobs, repair and modernize domestic infrastructure crucial
to the safety of American citizens, enhance energy independence, and expand consular services
offered to American taxpayers. The Recovery Act also established an unprecedented level of
accountability and transparency in Government spending. Agencies and contractors were subject
to new reporting requirements set forth by OMB that allow the general public to view Recovery
Act spending in a direct and timely manner. The Department’s projects and the breakdown of
proposed spending of Recovery Act funds are shown in Table 1.

Table 1. Department Projects and Proposed Spending of Recovery Act Funds
Department of State – Account / Project                                 Funds (in 000s)
Diplomatic & Consular Programs                                                     $90,000
    - Hard Skills Training Center                                                   70,000
    - Consular Affairs Passport Facilities                                          15,000
    - National Foreign Affairs Training Center                                       5,000
Capital Investment Fund                                                          $290,000
    - Data Center                                                                  120,000
    - IT Platform                                                                   33,500
         Diplomatic Facility Telephone System Replacement                           10,000
         Replacement of Aging Desktop Computers (GITM)                              13,000
         Mobile Computing                                                           10,500
    - Cyber Security                                                                98,500
         Tools to Guard Against & Track Cyber Attacks                               64,205
         Strengthen Computer H/W Security Testing & Forensic
         Investigations                                                               4,000
         Safeguarding Citizens – Computer Security Systems                          25,366
         Expanded Cyber Education                                                     4,929
    - Transfer to USAID                                                             38,000
Office of Inspector General                                                         $ 2,000
International Boundary and Water Commission Construction                         $ 220,000
                                                           TOTAL                 $ 602,000
Source: Department of State.


         The Mobile Computing program will increase the number of employees who have mobile
access and increase the number of devices that can connect to the Department’s networks. The
program also increases the ability of employees worldwide to telework, both to support “green”
initiatives and to ensure continuity of operations when responding to a crisis that might limit
movement either domestically or abroad.

       IRM operates and maintains the systems that allow mobile employees remote access to
the Department’s OpenNet network. OpenNet is the Department’s Sensitive But Unclassified
(SBU) network, and it provides access to standard desktop applications, custom Department

                                               2

                                       UNCLASSIFIED
                                      UNCLASSIFIED


software solutions, and database management systems. Mobile computing provides easy-to-use
business quality productivity tools for the Department and comprises the following components:

      Blackberry Enterprise System (BES) – This integration effort is designed to enable
       Department personnel to use mobile computing personal digital assistant (PDA) devices
       both domestically and overseas.
      OpenNet Everywhere (ONE) – This component allows secure remote access to a user’s
       desktop from any computer that has access to the Internet.
      Secure Dial-in (SDI) / IRM Laptop program – This program provides secure access to a
       user’s desktop through a Government-owned laptop.

        Mobile Computing program managers within IRM are responsible for the configuration
of the servers and for the testing and maintenance of laptops and other portable communication
devices to ensure successful connectivity, data transfers, and messaging.

        The current mobile computing platform provides remote access to a certain percentage of
the Department’s employees. Having recognized information technology (IT) mobility as a key
business requirement, the Department concluded that its current infrastructure and devices are
limited and do not provide full access and/or functionality for accessing and using all of the
Department’s unclassified resources and applications. In addition, the current platform cannot
support an increase in the number of users who would require and benefit from remote access.

       The proposed enhancements are part of the ongoing Cyber Security initiatives within the
Department’s long-term IT Strategic Plan. Recovery Act funds will be used to supplement the
Department’s current resources in upgrading its mobile computing platform. This upgrade will
include using Recovery Act funds to procure hardware, software, contractor staff, and other
various IT-related equipment and supplies.

                                          Objective
       The objective of our audit was to determine whether the Department adequately
implemented Mobile Computing program plans, achieved stated program outcomes, and
complied with the reporting requirements of the Recovery Act.

                                      Results of Audit
        The Department has made progress in accomplishing its Mobile Computing program
objectives and milestones. The success of the Mobile Computing program was the result of
collaboration between several Department bureaus and other Department personnel and
contractor staff.

       As of September 30, 2010, all of the Recovery Act funding for the Mobile Computing
program had been obligated. Contract awards to four vendors accounted for $7,990,473, or 76
percent, of the program’s obligations. Overall, IRM program managers have complied with the
management and financial oversight requirements of OMB. Also, funds were awarded and


                                               3

                                      UNCLASSIFIED
                                              UNCLASSIFIED


distributed in a prompt, fair, and reasonable manner. However, we noted several areas where
Recovery Act procedures were not followed and contract data was not reported accurately.

Finding A. Program Objectives Are Being Accomplished

        Based on our inquiries of project management, review of supporting documentation, and
tests for propriety of contract obligation and expenditure transactions, we determined that
satisfactory progress was being made on meeting program objectives. Recovery Act funds were
appropriately accounted for and were being used in accordance with approved program plans.
We found that Mobile Computing did not experience any significant delays or funding issues
with regard to those activities funded by the Recovery Act. However, we did find that the
program’s objectives do not represent completion of projects. Rather, the efforts related to
Mobile Computing that were funded by the Recovery Act are only component parts of the
Department’s existing and ongoing Cyber Security and long-term IT Strategic Plan. To
complete all components of the Cyber Security initiative as they relate to Mobile Computing,
additional funding and resources will be required in FY 2011 and beyond.

        As of September 30, 2010, obligations under the Mobile Computing program totaled
$10,510,242.14, which is $10,242.14 over the $10.5 million designed under the program. We
consider this amount to be immaterial, and it does not result in an overage of total available
funds, as explained in Appendix C. Per the Department’s Global Financial Management System,
details regarding the program’s obligations and expenditures are as shown in Table 2.

Table 2. Mobile Computing Program Obligations and Expenditures as of Sept. 30, 2010
                                                                     (As of September 30, 2010)
                      Category                                   Obligations            Expenditures
Contracts                                                         $ 10,327,047.88             7,738,865.52
Grants.gov*                                                              59,931.00               59,931.00
Working Capital Fund / Surcharges                                      123,263.26               123,263.26
                                              TOTAL               $ 10,510,242.14           $ 7,922,059.78
*OMB Memorandum 09-17, Improving Grants.gov, states that because of the sudden and significant increase in
usage resulting from Recovery Act opportunities, every grant-making agency is required to cover a proportionate
share of improvement costs to Grants.gov. The Department’s OMB-mandated share was $59,931. [Source:
Department of State]

    In addition to the information summarized in Table 2, the major contracts awarded using
Recovery Act funds under the Mobile Computing program are summarized in Table 3.




                                                        4

                                              UNCLASSIFIED
                                       UNCLASSIFIED


Table 3. Mobile Computing Program Major Contracts
                                       (As of 9/30/10)
    Vendor               Award          Obligated                      Services
Trusted Base,        SAQMMA09F1953       $4,726,612 Mobile computing support: research, build,
LLC                                                 pilot, and implement a new unclassified remote
                                                    access system for OpenNet to replace and/or
                                                    enhance OpenNet Everywhere (ONE).
Ec America, Inc.     SAQMMA10F2298       $1,557,441
                                                    Citrix Software and Tech support (Virtual
                                                    Desktop Software)
Govconnection        SAQMMA10F2280       $1,032,186 HP Servers and ADP Equipment

Thundercat           SAQMMA10F2279         $ 674,234 ADP support equipment and services
Technology,
LLC
                               TOTAL      $7,990,473 (Approximately 76% of total obligations)

Source: Department of State.


Finding B. Program Is Generally in Compliance With Recovery Act
Requirements

        IRM program managers adequately planned for and managed the funds provided for the
Mobile Computing program. Recovery Act funds were used for their intended purposes, and
overall, the Department complied with OMB requirements. We determined that funds were
awarded and distributed in a prompt, fair, and reasonable manner. Contractors and other fund
recipients met eligibility requirements and complied with award requirements. As required by
the Recovery Act, separate Treasury Account Symbols (TAS) were established for the Mobile
Computing program. As reported through the Department’s Capital Investment Fund, we
verified that program funds had proper approvals and that the monitoring of subprojects and
contracts was adequate, as shown in Appendix B, “Capital Investment Fund.” We did note,
however, some minor instances in which Recovery Act procedures were not followed and
contract data was not reported accurately.

Notifications on the Federal Business Opportunities Web Site

       Of the 10 contracts reviewed, we found that seven of the Federal Business Opportunities
(FBO) Web site FBO.gov notifications did not provide adequate transparency or a clear
understanding to the general public of the purpose, nature, and corresponding program of the
procurements. The Department has publicized both its program plans and its contracts awarded
with Recovery Act funds. However, award notifications did not reference specific program
plans or objectives, which made it difficult to determine which awards were made with respect to
the Department’s Recovery Act programs. In addition, eight award notifications did not include
descriptions of the products or services that could be readily understood by the general public.



                                                 5

                                       UNCLASSIFIED
                                          UNCLASSIFIED


          In that regard, OMB Memorandum M-09-153 states:

          Agencies should ensure that their descriptions of procurements use language
          appropriate for a more general audience, avoiding industry-specific terms and
          acronyms without plain language explanations. Taxpayers, media, and others are
          using our business systems to gain insight on how Recovery Act funds are being
          spent.

        Transparency and accountability of Recovery Act funds are major requirements of the
act. However, since all program funds have been obligated, we are not making any
recommendations for IRM’s Enterprise Network Management Division to take actions to
improve transparency for future procurement notifications reported through FBO.gov.
Nevertheless, this deficiency prevented the general public from having the ability to identify
procurements made pursuant to the Mobile Computing program, since descriptions within award
notifications did not contain references or mention corresponding programs.

Accuracy of Recipient-Reported Data on Award Information

        For the quarterly reporting period ended December 31, 2009, we found one award in
which recipient-reported data did not agree with source documentation. Data showed that the
contractor did not bill the Department for equipment purchased; however, the Department had
paid the contractor a month earlier when the equipment was delivered.

        The FAR4 establishes reporting requirements for contractors receiving awards that were
funded by the Recovery Act. The information to be reported includes cumulative amounts
awarded, cumulative amounts spent, descriptions of goods and services, assessment of contractor
progress toward completion, and any subcontracting activity. Contractors receiving awards
under the Recovery Act are required to report on award information and activities on a quarterly
basis using the online reporting tool FederalReporting.gov. This information is then uploaded
from FederalReporting.gov to Recovery.gov for publicizing to the general public. Department
personnel are required to review recipient-reported information every quarter to ensure
consistency with information in Department records.

          Recommendation 1. We recommend that the Bureau of Administration, Office of
          Logistics Management, Office of Acquisitions Management (A/LM/AQM), ensure,
          through more effective oversight of the quarterly review of recipient-reported data, that
          contractors that receive awards from the American Recovery and Reinvestment Act for
          the Mobile Computing program provide accurate award information and that the
          inaccurate award information identified in this report is corrected.

          Management Response: AQM concurred with the recommendation, stating that the
          bureau will research reported inaccuracies and provide OIG with an action plan to resolve
          any discrepancies.


3
    OMB Memorandum M-09-15, pt. 6.2.
4
    FAR 52.204-11.
                                                   6

                                          UNCLASSIFIED
                                      UNCLASSIFIED


         OIG Analysis: On the basis of the response, OIG considers the recommendation
         resolved. OIG will consider the recommendation closed pending review and acceptance
         of AQM’s action plan.

Instance of Noncompliance With Certain Office of Management and Budget Requirements

        Management and oversight of OMB requirements for contracts supporting the Mobile
Computing program were generally accomplished. However, of the 10 contracts reviewed under
the Mobile Computing program as of June 30, 2010, we noted that neither a pre-solicitation nor
an award notification was posted for one of these awards. Per OMB Memorandum M-09-15,5
agencies must publish both a pre-solicitation and award notifications within FedBizOpps (FBO)
related to all goods and services procured using Recovery Act funds.

        Since all program funds have been obligated and the noncompliance instance cited is
isolated, we are not making any recommendations in this area.




5
    OMB Memorandum M-09-15.
                                               7

                                      UNCLASSIFIED
                                        UNCLASSIFIED



                                                                                     Appendix A

                                  Scope and Methodology
       The Department of State (Department), Office of Inspector General (OIG), contracted
with Clarke Leiper, PLLC, independent public accountant, to audit the Department’s Mobile
Computing program.

        The purpose of this audit was to evaluate the Mobile Computing program and assess the
Department’s planning and use of Recovery Act funds in order to meet program objectives, to
ensure that Recovery Act funds were used for their intended purpose, and to determine whether
the Department complied with Office of Management and Budget requirements. To ensure the
adequacy of program plans and to ensure that the Department used Recovery Act funds
appropriately, we performed audit procedures to determine whether

      Funds were awarded and distributed in a prompt, fair, and reasonable manner.
      Recipients and uses of all funds were transparent to the public and the public benefits of
       the funds were reported clearly and accurately and in a timely manner.
      Risks associated with the project receiving Recovery Act funding have been identified
       and communicated to the Department.
      Funds were used for authorized purposes.
      The program has taken action to identify and mitigate instances of fraud, waste, error,
       and abuse.
      Established schedules were monitored and delays were properly justified.
      Cost overruns and unnecessary delays were avoided and lessons learned were identified
       to prevent recurrence.
      Program goals and specific program outcomes were achieved.
      Contractors and other fund recipients met eligibility requirements and complied with
       award requirements.
      Adequate planning was conducted for potential future project phases.

        We conducted the audit work from April through October 2010. This work was
conducted in accordance with generally accepted government auditing standards. Those
standards require that the auditors plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We and OIG believe that the evidence obtained provides a reasonable basis for the
findings and conclusions based on the audit objective.

       In our audit of the Department’s Mobile Computing program, we interviewed project
managers at the Bureaus of Information Resource Management (IRM) and Diplomatic Security
(DS) and evaluated documentation supporting planned activities and milestones, risk
assessments, and other relevant documents in support of major accomplishments or decisions.
For compliance with Recovery Act requirements, we reviewed contract files, award
documentation, and information published on the Web sites Recovery.gov, FPDS.gov, and
FedBizOpps.gov. In determining the proper use of Recovery Act funds, we tested sampled


                                                8

                                        UNCLASSIFIED
                                       UNCLASSIFIED


transactions and reviewed source documents, including purchase orders, contracts, vendor
invoices, and payment and approval vouchers.

       In the draft report, we addressed the report’s one recommendation to the Bureau of
Information Resource Management (IRM). However, IRM officials suggested that the Bureau of
Administration, Office of Logistics Management, Office of Acquisitions Management
(A/LM/AQM), would be the more appropriate office to take action on this recommendation.
Therefore, we redirected the recommendation in this final report to AQM, whose response in
presented in Appendix C.

Work Related to Internal Controls

        To assess the adequacy of internal controls related to the weekly activity reports, the
accountability of Recovery Act funds, and the monitoring of projects to avoid cost overruns and
delays, we performed the following actions:

     Obtained an understanding of the processes and procedures.
     Reviewed source documentation and other types of evidence in order to confirm the
      adequacy of stated controls.
     Compared weekly report balances with details and reconciled differences in the Global
      Financial Management System (GFMS).
     Reviewed internal reports related to the compilation of balances and amounts for
      reporting to the public.
     Compared reported progress to the planning documents and progress schedules.
     Determined that separate Treasury Account Symbols (TAS) were established for
      Recovery Act programs.
     Verified proper approval over transactions involving Recovery Act funds.
     Discussed with program managers issues regarding cost overruns and delays and
      subsequently compared responses to expenditure details and program schedules to assess
      the reasonableness of responses.

Data Reliability

         We selected a sample and performed the following procedures in assessing data
reliability and quality:

   	 Reviewed contract files to determine whether contracts were competitively awarded and
      at fixed cost.
   	 Tested, if a contract was determined to have been awarded noncompetitively or at a non-
      fixed cost, whether those contracts were disclosed and listed within a separate section on
      Recovery.gov.
   	 Reviewed, for each contract, corresponding notifications and award information
      published on FedBizOpps and FPDS.gov to determine whether all required Recovery Act
      disclosures and identifying information were reported.



                                               9

                                       UNCLASSIFIED
                                      UNCLASSIFIED



   	 Reviewed, for each contract, the vendors’ reported data from Recovery.gov to ensure all
      required information was included. We also compared vendor-reported amounts with
      those within GFMS.
   	 Compared weekly financial report balances with information in underlying schedules and
      GFMS details.

Use of Computer-Processed Data

       We used computer-processed data from GFMS to select sample items for testing
contracts and obligation and/or expenditure transactions. We also used GFMS details and
reconciling schedules to compare the accuracy of balances reported within the Recovery Act
weekly financial reports posted by the Department. We determined that the GFMS data and
schedules were reliable based on our selected sample and our testing of internal controls
involving the weekly reporting process.




                                              10

                                      UNCLASSIFIED
                                         UNCLASSIFIED




                                                                                      Appendix B

                                  Capital Investment Fund
       Funding from the Recovery and Reinvestment Act of 209 (Recovery Act) for the
Department of State (Department) is allocated among four separate Treasury Account Symbols
(TAS), or funds. These funds were created to comply with the Recovery Act requirement of
tracking and accounting for Recovery Act funds separately from other agency funds. All of the
TASs and related activities are included within the Department’s weekly financial reports. The
Department has obligated the entire amount available for the Mobile Computing program.

       The Department’s Capital Investment Fund (TAS 1119) is broken down into three
sections–the data center, cyber security, and IT platform initiatives, as shown in Table 1. The
Mobile Computing program is tracked and recorded under the IT platform portion of the fund
(TAS 1119.0003), as shown in Table 2.

Table 1. Department of State Capital Investment Fund
Department of State – Capital Investment Fund                           Planned         Actual
(TAS 1119)                                            Fund Code         Budgeted      Obligations
   - Data Center                                      1119.0001         120,000,000     119,972,941
   - Cyber Security                                   1119.0002          98,500,000      98,502,834
   - IT Platform                                      1119.0003          33,500,000      33,499,148
  Transfer to U.S. Agency for International
Development (USAID)                                       -              38,000,000      38,000,000
                                              TOTAL                 $ 290,000,000     $ 289,974,923
Source: Department of State.

Table 2. IT Platform Portion of Capital Investment Fund
                                                                              Obligations      as
              IT Platform (TAS 1119.0003)                     Planned
                                                                                of 9-30-2010
Diplomatic Facility Telephone System Replacement              $10,000,000           $ 10,000,000
Replacement of Aging Desktop Computers (GITM)                   13,000,000             12,988,906
Mobile Computing                                                10,500,000             10,510,242
                                              TOTAL           $ 33,500,000          $ 33,499,148
Source: Department of State.

        The Department’s External Program Plan indicates a planned budget of $10,500,000 for
Mobile Computing. Actual obligations exceeded this amount by $10,242. However, obligations
did not exceed budgeted amounts of the IT Platform component as well as the Capital
Investment Fund (TAS 1119) in total.




                                                 11

                                         UNCLASSIFIED
                           UNCLASSIFIED



                                                                             Appendix C




                                              United States Department of State
                                              Washington , D.C. 20520

                                              July 19,2011

UNCLASSIFIED
MEMORANDUM

TO:         OIG/AUD - Ma:k Taylor

FROM:       Cathy Read   ~AQM
SUBJECT: Draft Report on Audit of the Department of State Mobile Computing
         Program Funded by the American Recovery and Reinvestment Act

Recommendation 1: We recommend that the Bureau ofInfonnation Resource
Management, Enterprise Network Management Division, ensure, through more
effective oversight of the quarterly review of recipient-reported data, that
contractors that receive awards from the American Recovery and Reinvestment
Act for the Mobile Computing program provide accurate award infonnation and
that the inaccurate award infonnation identified in this report is corrected.

AlLMlAQM response :

AlLMlAQM will work with the OIG regarding the identified contracts/task orders
and will research each reported inaccuracy. Once all procurement-related actions
have been researched and verified, AlLMlAQM will provide OIG with an action
plan to resolve any discrepancies.




                               UNCLASSIFIED




                                    12 


                           UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs

         and resources hurts everyone. 


        Call the Office of Inspector General 

                     HOTLINE 

                    202-647-3320 

                 or 1-800-409-9926 

          or e-mail oighotline@state.gov 

       to report illegal or wasteful activities.

               You may also write to
            Office of Inspector General
             U.S. Department of State
               Post Office Box 9778
               Arlington, VA 22219
            Please visit our Web site at:
                http://oig.state.gov

         Cables to the Inspector General
        should be slugged “OIG Channel”
            to ensure confidentiality.
